<html>
<title> - BURMA'S CHALLENGE: DEMOCRACY, HUMAN. RIGHTS, PEACE, AND THE PLIGHT OF. THE ROHINGYA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                  BURMA'S CHALLENGE: DEMOCRACY, HUMAN
                    RIGHTS, PEACE, AND THE PLIGHT OF
                              THE ROHINGYA

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 21, 2015

                               __________

                           Serial No. 114-117

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 __________
                                 
                                 
                                 
                           U.S. GOVERNMENT PUBLISHING OFFICE
97-264PDF                           WASHINGTON : 2015                           
________________________________________________________________________________________                                 

For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fe998e91be9d8b8d8a969b928ed09d9193d0">[email&#160;protected]</a>  
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     MATT SALMON, Arizona Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             TULSI GABBARD, Hawaii
JEFF DUNCAN, South Carolina          ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            GRACE MENG, New York
SCOTT DesJARLAIS, Tennessee
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Daniel R. Russel, Assistant Secretary, Bureau of 
  East Asian and Pacific Affairs, U.S. Department of State.......     7
The Honorable Jonathan Stivers, Assistant Administrator, Bureau 
  for Asia, U.S. Agency for International Development............    17
The Honorable Tom Andrews, president, United to End Genocide.....    33
Ms. Jennifer Quigley, president, U.S. Campaign for Burma.........    43

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Daniel R. Russel: Prepared statement...............     9
The Honorable Jonathan Stivers: Prepared statement...............    19
The Honorable Tom Andrews: Prepared statement....................    36
Ms. Jennifer Quigley: Prepared statement.........................    46

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57
The Honorable Tom Andrews: Material submitted for the record.....    58
Written responses from the Honorable Daniel R. Russel to 
  questions submitted for the record by members of the 
  subcommittee...................................................    65

 
                  BURMA'S CHALLENGE: DEMOCRACY, HUMAN.
                    RIGHTS, PEACE, AND THE PLIGHT OF.
                              THE ROHINGYA

                              ----------                              


                      WEDNESDAY, OCTOBER 21, 2015

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10 o'clock 
a.m., in room 2172 Rayburn House Office Building, Hon. Matt 
Salmon (chairman of the subcommittee) presiding.
    Mr. Salmon. The subcommittee will come to order.
    Burma, also known as Myanmar, is a country with a long 
history and a rich culture that has, after decades in military 
rule, in recent years taken the first steps to transition into 
a disciplined democracy. In 2011, the Burmese military regime 
dissolved the ruling junta and handed power over to the union 
Parliament and President Thein Sein, reserving considerable 
influence for themselves.
    On November 8th, Burma is scheduled to hold its first 
openly contested election in 25 years with hopes that it will 
be credible, transparent and inclusive. As the elections draw 
near, we watch intently to see if Burma lives up to its 
promises. Committee staff have traveled to Burma to observe 
political dynamics and assess the humanitarian situation in the 
lead up to this election, and I find that I am both optimistic 
and pessimistic.
    The ultimate success of the political transition remains 
uncertain. How should we in Congress judge a systematically 
manipulated democratic transition in light of what may be a 
credible, transparent and inclusive election process on 
November 8th? If the odds are intentionally in the ruling 
party's favor but they have a clean election, how should the 
U.S. respond?
    We know that the election is not the end-all be-all for 
Burma. We will watch the political transition unfold in the 
coming months to look for a peaceful transition and sustained 
dedication to transparency, openness, and reform. We welcome a 
sustained transition to democracy, while it is yet to be seen, 
and in the meantime we will urge restraint on further expansion 
of U.S.-Burma relations. I look forward to hearing from our 
distinguished panels what we should expect from the election 
and the ensuing transition, and what it means for the people of 
Burma.
    There are other major issues to discuss here today. On 
October 15th, the government, the military, and ethnic armed 
organizations signed a joint ceasefire agreement after 2 years 
of negotiations. About a dozen armed ethnic groups declined to 
sign. I wait to see how the remaining ethnic armed groups will 
be reintegrated into the process, how the post-ceasefire 
dialogue will take shape, and how Burma intends to address the 
humanitarian costs and challenges the conflict has wreaked on 
their country.
    Speaking of uncertain futures, I am saddened by the 
resolute denial of rights to the Rohingya people. After the 
2012 riots that displaced nearly 150,000 Rakhine and Rohingya, 
there is little improvement in living standards. Our staff 
recently visited Rakhine to investigate the conditions and look 
at the displaced camps where over 143,000 still live. At the 
Rakhine camps, residents asked the United States to provide 
solar power, jobs, and funding for education.
    And this is what the homes look like. You can see them on 
your screens; they are on the screens on the walls. At the 
Rohingya camps, homes were literally sinking into rice paddies 
that the houses have been built on. If you see here, the 
disparity is quite stark. The Rohingya, asked about the 
amenities, what amenities were missing, they want to be able to 
feed and provide for their families and their children.
    As the monsoon season recedes, we may see another repeat of 
earlier of this year, tens of thousands of migrants boarding 
rickety boats to aimlessly tackle the seas in search of hope in 
Thailand, Malaysia and Indonesia. The United States alone 
cannot be the solution to this problem. The Burmese Government 
must address this heinous violation of human rights.
    I do want to recognize the Burmese Government for making 
commendable advances in its economy, its political system, and 
civil society. The aperture has widened for greater freedoms 
and voices to be heard, but not sufficiently. It is also clear 
how much hard work remains to be done.
    Members present are going to be permitted to submit written 
statements to be included in the official hearing record, and 
without objection, the hearing record will be open for 5 
calendar days to allow statements, questions and extraneous 
materials for the record subject to the length and limitation 
in the rules. And I recognize Mr. Royce.
    Mr. Royce. Well, thank you very much, Chairman Salmon. 
Thank you, by the way, for traveling to Rakhine State in order 
to view this firsthand, and also for this hearing.
    Many are looking at Burma's upcoming elections to gauge the 
progress in that troubled country. But a better yardstick in my 
view is the country's abhorrent treatment of the minority 
Rohingya Muslims, probably the most persecuted minority group 
in the world. That should be our test, key test. The elections 
are important, but this is even more important. It is the 
yardstick.
    For over three decades now, the Government of Burma has 
systematically denied the Rohingya even the most basic of human 
rights. A 1982 citizenship law denies the Rohingya Burmese 
citizenship even though most of them have lived in the country 
for generations. This goes back to the 8th century, their 
presence there by the way.
    In the past 5 years since the Obama administration's 
outreach to the Burmese regime, 140,000 Rohingya and other 
Muslims have been displaced by violence and hundreds have been 
killed. As one 12-year-old Rohingya boy recounted during the 
2012 violence, Burmese men broke into his house and beat his 
father's head in with a brick before slaughtering him with a 
knife. For the mass killings that broke out in 2012, 
exceptionally few have been prosecuted, let alone jailed.
    In fact, a non-governmental organization based in Southeast 
Asia disclosed credible documents detailing state involvement 
in persecuting Rohingya. They outlined state policies on 
population control, restrictions on movement, and empowering 
security forces to use abusive measures to control Rohingya, 
among other steps.
    Now it is no wonder that Rohingya by the thousands, as 
Chairman Salmon just mentioned, are packing themselves into 
boats to flee and they are fleeing for their lives. They end up 
in Malaysia and Bangladesh facing the hardships of destitute 
refugees. Others perish in the Indian Ocean or fall prey to 
human traffickers. There must be a way to protect these 
individuals through a ``safe zone'' in the Rakhine State. There 
must be a way to have humanitarian groups have the ability to 
go in there and work with this community and have people 
protected in that state, and other minorities protected in that 
state.
    This tragedy is what happens when a government refuses to 
recognize its own people. The Thein Sein government maintains 
that Rohingya are merely Bengali migrant workers, but their 
roots go back centuries. Muslims trace their roots back to 
Rakhine State to the 8th century. These deep historic ties of 
the Rohingya to Burma must be recognized and of course 
protected.
    The Government of Burma cannot claim progress toward 
meeting its reformed goals if it so blatantly and cruelly 
mistreats Rohingya Muslims and other minority groups. The U.S. 
must prioritize the protection of human rights in its relations 
with Burma using the tools we have at our disposal. In August, 
Ranking Member Engel and I wrote to the Treasury Department 
expressing our concern that only one individual had been added 
to the Specially Designated Nationals List for violations of 
human rights since violence erupted back in 2012. That is the 
list for enforcing economic sanctions, blocking assets and 
trade to accomplish our foreign policy goals. With the people 
on the verge of genocide it is inexcusable that we are not 
aggressively targeting abusers here. We need to do that. More 
than one needs to be on that list, and I plan on working with 
the administration providing additional names of Burmese human 
rights abusers to be added to the Specially Designated 
Nationals List.
    And again I thank Chairman Salmon and I thank Mr. Sherman, 
and I look forward to hearing from the administration on this.
    Mr. Salmon. The chair recognizes Ranking Member Sherman.
    Mr. Sherman. Thank you, Mr. Chairman, for holding these 
hearings about Burma, or Myanmar. I want to focus on three 
things: The Rohingya, elections, and U.S. policy. I want to 
associate myself with the last two opening statements. The 
Rohingya constitute 1.1 million people, 2 percent of Burma's 
population. The persecution has been well described by the last 
two speakers. They have lived in, just recently, in temporary 
camps for 3 years. Of course they face discrimination long 
since then.
    We advocate democracy around the world, but we should make 
it clear we advocate democracy with minority rights around the 
world. And as Burma heads into the elections in November, it 
appears that both the ruling party, the USDP, and the main 
opposition party, the NLD, are avoiding proposing solutions for 
the plight of the Rohingya.
    This is particularly disappointing when it comes to Aung 
San Suu Kyi and her party. She has captured the imagination of 
human rights advocates around the world for decades, but now 
her voice is silent when we see the oppression of 2 percent of 
Burma's population. Of course, the ruling party is worse having 
passed four race and religion protection laws.
    Now one issue here is the concept of citizenship. We have 
birthright citizenship here in the United States. It is 
controversial. Other countries have different rules. But what 
we can't see is the circumstance where people who have lived in 
a country for multiple generations are denied rights. We need 
to be able to define the difference between reasonable 
immigration law enforcement, which does involve deportations in 
some circumstances, with ethnic cleansing of people who have 
been there for generations. And I hope the State Department can 
tell me that we have a line that guides the State Department on 
what is the appropriate treatment of minority groups who have 
been in a place for generations and yet are not accorded the 
benefits of full citizenship.
    I have been briefed by the Ambassador twice and the foreign 
minister once on these issues just in the last few weeks. And 
as I understand it, people, even if they did arrive before 
World War II, are not citizens, their children are not 
citizens, but their grandchildren may be citizens if they can 
show papers that their grandparents arrived decades and decades 
ago. This is an absurd system, especially when I am not sure if 
it was the chief objective of the Japanese occupying forces to 
issue a citizenship or residency papers to those crossing what 
had been a border between two British-controlled areas in South 
Asia.
    Moving on to the election, the State Department had 
different definitions for what would be a successful election. 
Unlike the 2010 and 2012 elections where the standard was free 
and fair, for the November elections we are calling for 
elections to be transparent, inclusive and credible. I don't 
know whether this is a raising of the bar or a lowering of the 
bar. It has been said that it involves a lowering of the bar, 
and we have to look at not only the Rohingya but some 600 
villages where people are not going to be allowed to 
participate in the election. We have to look at the voter list 
prepared in part at our expense, yet containing many made-up 
names on the one hand, and excluding many people who would 
likely vote for the opposition.
    As to what we can do, Burmese officials are asking us to do 
three things: Sanctions relief, USAID and military financing, 
and joint military exercises. In picking whether we are willing 
to do any of these, we have to look at the human rights 
situation. We should not be so arrogant as to ignore our own 
economic circumstance and note that sanctions relief would not 
cost the U.S. Government anything, might allow our companies to 
make some money, probably not--and I would like to see a lot 
better human rights situation before we talk about that. But 
USAID, FMF, and even military exercises all come at the cost to 
the American taxpayer.
    The Burmese Government has made 11 promises. They haven't 
even started to fulfill some of them. We of course have talked 
about ethnic problems in Rakhine State. There is also the 
promise to establish a ceasefire in Kachin, and that is also a 
very unmet promise with only eight of the 20 groups who have 
signed on, and of course the biggest groups have not. So I look 
forward to hearing from our witnesses not only about Burma, but 
also what standards do we apply to determine whether an 
election meets our standards and what standards do we apply to 
draw the distinction between reasonable immigration laws on the 
one hand, and ethnic cleansing of people who have been in the 
country for centuries on the other. I yield back.
    Mr. Salmon. Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman, and I will be brief. I 
had an opportunity to travel to Burma, I guess it has been 4 or 
5 years ago, something like that, and it was shortly either 
before or after then Secretary of State Clinton went there, and 
have worked very closely in a bipartisan manner with our 
colleague Joe Crowley on a number of issues related to Burma.
    And the administration has tried to portray our new 
relationship and the new Burma as a success story, and I think 
probably the most positive thing that you can see is that the 
jury is still out on that. There are still tremendous problems, 
and some of them have already been mentioned particularly with 
respect to the Rohingya.
    And one of my main criticisms would be that the 
administration has been too willing to reach out, work with, 
cooperate with Burmese military with promises of reforms, which 
we really haven't seen significant evidence that they are 
actually carrying out with these things. There are still 
tremendous human rights abuses of the minorities and the 
militaries involved in these things, particularly with respect 
to the Rohingya, as I say as already been mentioned.
    And just one final point. I don't think that Burma can try 
to tout to the world that they really have reformed and that 
they are a true democracy until the most popular political 
figure in the country, Aung San Suu Kyi, is eligible to lead 
that country. And I think that is what the people of Burma, the 
vast majority of people would like to see. It hasn't happened 
yet, but I hope it does sometime in the very near future. And I 
yield back the balance of my time. Thank you.
    Mr. Salmon. Thank you. Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman, and thank the ranking 
member. Mr. Chairman, I think you put it best. When we think 
about Burma, or Myanmar, both cautious optimism but also some 
pessimism. And as I think about the next steps in Myanmar's 
progress we are looking very closely at the November 8th 
elections. I mean, there really does have to be a credible, 
transparent and inclusive election here.
    And that is a message that we have shared with the 
Ambassador. That is something that I think many of us here in 
Congress will be looking for. And again it is cautious 
optimism. We want to see that progress. We want to see Myanmar 
become more of a stable democracy. We want to see some 
constitutional reforms that make it a much more inclusive 
constitution that also makes Parliament a much more inclusive 
body as well. It is going to take time, and I recognize that we 
won't get where we would like to see Myanmar overnight, but we 
do want to see that steady progress.
    And Myanmar does have an important role as we look to 
stabilize South Asia, as we look to work in that region to 
develop economies, to address human rights concerns, et cetera. 
But again, in no uncertain terms, the next big step is November 
8th to make sure that this is a credible election that is 
somewhat fair. So thank you, I will yield back.
    Mr. Salmon. Thank you. Mr. Lowenthal.
    Mr. Lowenthal. Thank you, Mr. Chair, and I thank the 
witnesses for joining us today. Like many on the panel before 
us today, I want to be optimistic about Burma's future and 
believe that the current leadership is ready to turn toward 
democracy and respecting the human rights of its people.
    But I join with others in being discouraged by the 
continuing efforts to restrict the openness of the November 
elections, and most importantly the ongoing persecution of the 
Rohingya people. The Union Election Commission's uneven actions 
and lack of transparency have severely undermined the 
credibility of this election well in advance of voting.
    This reminds me of the 2013 parliamentary elections in 
nearby Cambodia. One of the major protests of the opposition 
parties after the election was that the supposedly impartial 
National Election Committee was in fact stacked by the ruling 
Cambodian People's Party and Prime Minister Hun Sen. I believe 
the case of Cambodia highlights the need for independent 
election monitoring both from domestic civil society and by 
international observers.
    Even after the election, the consequences of two 
constitutional provisions must be reckoned with today. The fact 
that a quarter of the parliamentary seats are going to be 
reserved for appointment by the military and not accountable to 
the people, to the will of the people, raises serious questions 
about the country's commitment to democracy. I have also raised 
the issue of opposition leader Aung San Suu Kyi being 
constitutionally barred from being President.
    I join with Chairman Salmon and Chairman Royce in being 
deeply disturbed by the ongoing repression of the Rohingya, a 
Muslim ethnic minority. For years, the military regime has 
claimed these people are not citizens depriving them of their 
most basic rights. The persecution of the Rohingya has led to a 
major refugee crisis that has affected Burma, Bangladesh, 
Thailand, Malaysia and the entire region. Now the Burmese 
Government is forbidding the Rohingya from participating in the 
upcoming election.
    I recently had the chance to meet with a group of 
parliamentarians from Burma through the Tom Lantos Human Rights 
Commission, including U Shwe Maung, a Rohingya member of 
Parliament. He will not be able to run for election next month 
because the Election Commission says he is not a citizen.
    I thank the chairman for holding this important and timely 
hearing. It is our duty to encourage Burma to continue down the 
path of opening up and democratizing while we point out the 
serious and ongoing human rights violations in the country. 
Thank you, Mr. Chair, and I yield back.
    Mr. Salmon. Thank you very much.
    Our panel this morning is made up of distinguished 
witnesses from the administration. First Assistant Secretary 
Daniel Russel joins us from the State Department's Bureau of 
East Asian and Pacific Affairs, and Assistant Administrator 
Jonathan Stivers joins us from USAID. We are thrilled to have 
you here today, and we will start with you, Mr. Russel.

    STATEMENT OF THE HONORABLE DANIEL R. RUSSEL, ASSISTANT 
   SECRETARY, BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Russel. Well, Chairman Salmon, Ranking Member Sherman, 
members of the subcommittee, thank you very much for the 
opportunity to testify on this important issue today and for 
your longstanding support of U.S. policy in the Asia Pacific 
region and vis-a-vis the U.S. Burma relationship specifically. 
I am very pleased to be here today with my colleague Jon 
Stivers from USAID to speak about our support for democracy, 
for peace, and for human rights in Burma.
    I have been visiting Burma in my previous and current 
capacity regularly since December 2011, when I accompanied then 
Secretary Clinton, and I have seen reform in Burma create space 
for political debate, for an active civil society, and for 
greater press freedoms. Burma clearly has come a long way in 4 
short years. That said, as the members have pointed out it 
obviously has much work to do.
    The elections on November 8th will be an important 
milestone for Burma's transition. We want the entire electoral 
process, from the campaign to polling to vote counts, to the 
formation of the next government and the selection of the next 
President to be as credible, as transparent, as inclusive, as 
free and fair as possible given the challenges facing a 
fledgling democracy, and given the shortcomings in Burma's 
current constitution and its system. That is why we have been 
providing assistance to political parties, civil society, 
media, the government and others, as Jon will describe, and it 
has made a difference.
    It is also notable that the Election Commission has 
welcomed international experts and observers to help advance 
the quality and the credibility of the upcoming election. But 
even if the election meets international standards, as of 
course we all hope it will, Burma's transition to inclusive 
civilian democracy will be far from complete.
    As you have pointed out, the disenfranchisement of hundreds 
of thousands white card holders, mostly Rohingya, undermines 
universal suffrage. So does the disqualification of Muslim 
candidates. The seats in Parliament reserved for the military 
and the rules that bar Aung San Suu Kyi from the Presidency 
deeply concern us as well. That said, these structural flaws 
are not stopping her. They are not stopping the NLD or the 90-
plus political parties and the 6,000 candidates who are 
competing vigorously, and by and large peacefully, for both 
local and national seats.
    What is unprecedented about Burma's elections now, in 2015, 
is that no one actually knows who is going to win and that is a 
good thing. But while the elections can be a significant step 
forward for the country, they are only one step. The next 
government is going to have to accelerate reform, improve 
governance, heal religious and ethnic divides including in 
Rakhine State, advance the peace process, and address the 
constitutional obstacles to a full civilian democracy.
    Now I mentioned the peace process. Like the United States, 
Burma is a diverse union, and after nearly 70 years of ethnic 
based conflict, it knows very well that reconciliation is 
essential to Burma's national development and its security. So 
we very much welcome last week's signing of a ceasefire 
agreement as a first step toward a just and sustainable peace. 
Not all groups have signed, although they have agreed on the 
text of the document, and continued military action and a lack 
of humanitarian access in Kachin and Shan States shows there is 
still a lot of work to be done.
    I also want to raise, as you have, human rights. Despite 
the considerable progress documented in the State Department's 
annual human rights report, over 100 political prisoners are in 
detention while over 400 are facing charges according to civil 
society sources. We have criticized the recent arrests of 
students, activists and journalists for exercising their 
democratic rights and freedoms, most recently Patrick Khum Jaa 
Lee and Chaw Sandi Tun. Likewise, we have privately and 
publicly objected to discrimination against religious and 
ethnic minorities.
    We are deeply, deeply concerned about the situation in 
Rakhine State. We are pushing hard for the protection, for 
opportunity, and ultimately a path to citizenship for the 
Rohingya, a path that respects their rights, their safety, and 
their dignity. And we are clear about the danger from measures 
like the race and religion laws and the rise in religious hate 
speech.
    Mr. Chairman, advocating for democracy and human rights is 
central to our diplomacy in Burma, across the region, and 
across the globe. President Obama, U.S. diplomats do it, you as 
Members of Congress do as well. I admit to being an admirer of 
the Burmese determination to make a historic transition from 
decades of military dictatorship, corruption and civil war, to 
a peaceful union with a civilian-led democratic government, and 
I believe it is in the best interest of the United States to 
help them to succeed. Thank you very much.
    [The prepared statement of Mr. Russel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                ----------                              

    Mr. Salmon. Thank you.
    Mr. Stivers.

    STATEMENT OF THE HONORABLE JONATHAN STIVERS, ASSISTANT 
 ADMINISTRATOR, BUREAU FOR ASIA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Mr. Stivers. Chairman Salmon, Ranking Member Sherman, 
distinguished members of the committee, thank you for the 
invitation to testify today on the role of USAID in advancing 
U.S. foreign policy goals in Burma. It is an honor to appear 
again before the committee and a pleasure to be alongside my 
colleague from the State Department Daniel Russel.
    The United States has a fundamental interest in the success 
of Burma's reforms and remains a committed partner to those who 
seek greater freedom, prosperity and dignity. Decades of 
military rule and conflict have prevented the development of 
well functioning government systems and has negatively impacted 
Burma's economic standing. Today it is one of the poorest 
countries in the world with a quarter of the population living 
in poverty and significant health challenges including some of 
the highest HIV, malaria and drug resistant TB rates in the 
region.
    Ultimately, Burma's future will be determined by its people 
and that is why support for civil society is at the core of our 
efforts, from strengthening political reforms and furthering 
national reconciliation to expanding economic opportunity and 
improving the health and resilience of vulnerable communities.
    Most recently, democratic freedoms continue to be tested. I 
associate myself with the concerns of Assistant Secretary 
Russel in regards to the recent arrests, and one of the arrests 
was the spouse of a USAID grantee. They should be released 
immediately and unconditionally. While the people of Burma face 
many development challenges, I will focus on the election, the 
Rohingya, and the peace process.
    In terms of the election, we knew from the beginning that 
supporting the mechanics of a democratic election would be a 
tremendous challenge but it was a challenge worth accepting 
because the reformers in Burma asked for and needed our 
involvement. And despite the challenges, the people in Burma 
are actively participating in a vibrant and competitive 
election season with 93 registered political parties including 
60 parties representing ethnic minority groups.
    The U.S. Government is providing more than 18 million in 
assistance to support the elections and political process. This 
includes assistance relating to the election administration, 
election observation, political party building, civil society, 
and the media. On election administration we are working 
through the International Foundation for Electoral Systems 
(IFES) to increase the capacity of the Union Election 
Commission.
    The Union Election Commission has made significant efforts 
to engage with civil society on election preparations, include 
ethnic representatives on the commission, improve the technical 
aspects of election preparations and support the deployment of 
independent election observers. In addition, through our 
partner, the International Republican Institute, IRI, USAID is 
helping to train political parties on managing effective party 
offices and ensuring that party policies are representative and 
inclusive.
    But despite the positive steps, many Muslim candidates were 
recently disqualified and hundreds and thousands of Rohingya 
have been disenfranchised. Steps that limit political 
participation run counter to democratic principles and raise 
questions about the inclusivity of the elections.
    In treatment of the Rohingya, the United States remains 
deeply concerned about the humanitarian and human rights 
situation in Rakhine State and the treatment of minorities 
including the ethnic Rohingya population. More than 143,000 
internally displaced persons remain in camps, with limited 
access to basic services, restrictions on their movement, and 
tremendous levels of poverty and malnutrition.
    U.S. Government assistance over the past year alone include 
more than 50 million in humanitarian assistance to vulnerable 
people, including the Rohingya in Burma and the region. 
Assistance includes access to safe drinking water, new 
sanitation facilities and hygiene promotion activities in these 
camps. And in response to the recent floods, USAID is providing 
more than 5 million in flood relief and recovery to the people 
affected in the disaster, reaching over 250,000 people with 
emergency food and supplies.
    The peace process. The long term stability of Burma and the 
success of the reforms hinge on national reconciliation and an 
end to the 65 years of armed conflict. The U.S. has provided 
8.5 million for activities that bring together civil society 
and the government to engage effectively, to build trust among 
the key stakeholders, to ensure civil society and women's 
participation in the peace process, and to provide training and 
support for civilian ceasefire monitoring. Since 2012, the U.S. 
has provided more than 100 million to conflict-affected 
communities through the provision of food, education, health 
care, protection, and other lifesaving services.
    In conclusion, we are clear-eyed about the challenges 
relating to these elections, the humanitarian and human rights 
situation in Rakhine State and the peace process. As the events 
unfold over the coming months, we will reassess the context and 
nature of our assistance to Burma in close consultation with 
the State Department and Congress. Thank you for the 
opportunity to testify today, and I look forward to your 
counsel and questions.
    [The prepared statement of Mr. Stivers follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                ----------                              

    Mr. Salmon. We thank the two panelists. We understand that 
the election process includes the campaign, election day and 
the transition to a new government, and it is not a single 
event. But reports as recent as yesterday have the estimates 
that up to 4 million citizens are unable to vote for varying 
reasons. That is more than 10 percent of the 33.5 million 
people officially eligible to vote.
    I would like to know on what will we base our assessment 
about whether this election is credible, transparent and 
inclusive? I have heard that it will depend solely on whether 
the Burmese people accept the election, but I have also heard 
that we will make the call based on what we observe. Could you 
provide any clarification on that, either of you, and what are 
we prepared to do if the election doesn't meet our benchmarks? 
Mr. Russel, I will start with you.
    Mr. Russel. Thank you, Mr. Chairman. You are absolutely 
right in that the United States will call it as we see it. We 
will make an assessment based on the facts and we will 
calibrate our response to the elections based on our assessment 
of how credible, how transparent, how inclusive, how free and 
fair we think it was. We are not wearing rose-colored glasses 
here. We are very mindful of the fundamental structural defects 
that I mentioned. There is nothing fair about reserving 25 
percent of the legislature for the military. There is nothing 
fair about disenfranchising the white card holders, the 
Rohingya. But Aung San Suu Kyi, the NLD, the parties, have 
decided to contest the election on that basis mindful of those 
defects. So we will assess, we will make our assessment based 
on what we hear and see, based on what we are told by Aung San 
Suu Kyi and the NLD, the other parties, and the election 
observers.
    It is important to note that not only IFES, but IRI, NDI, 
Carter Center, EU, are there in substantial numbers as are many 
thousands of domestic observers. We will listen to the Burmese 
media and we will listen to the Burmese people. We will apply 
these criteria, and we will also look at the morning after.
    It is critically important, Mr. Chairman, that all parties, 
including the military, accept the results of the polling and 
then proceed with the process of selecting a Parliament, 
government formation, as well as the choosing of a President in 
a way that is fully transparent. Our ability to assist the new 
Burmese Government, let alone to look at relaxation of 
sanctions or other measures, will depend on our assessment of 
the integrity of the overall process. Thank you.
    Mr. Salmon. Mr. Stivers, do you have any thoughts?
    Mr. Stivers. I think Assistant Secretary Russel explained 
it very well. There are obvious challenges with the election--
structural challenges--before the voting even begins. But the 
outcome of the contested seats is extremely important and as we 
said before, there is an open and vibrant and competitive 
process over those seats. The challenges are daunting in terms 
of trying to administer an election in a country with 53 
million people with limited experience with campaigns and 
democracy. And certainly the voter lists needed a lot of work, 
and we have been working with our partner, IFES, to try to 
improve those.
    And I have been there with IFES in Burma to see how that is 
done. Realize that there are 90 political parties, over 100 
different languages, and you have conflicts in many of the 
areas where we hope voting will take place. So the challenges 
of administering an election in this context are extremely 
difficult and we are working with the UEC and our partners 
there to make it as transparent and credible as possible.
    Mr. Salmon. And Mr. Stivers, with the monsoon season, 
international observers and organizations expect Rohingya 
boats, boat flights to resume, what preparations has the 
Government of Burma taken in advance of this, and are other 
regional countries such as Thailand and Malaysia expressing 
concerns about the possibility of migrant boats landing on 
their shores? Has there been a wider ASEAN-level response to 
this, and how can the United States hold Burma accountable for 
the welfare of its own people given that Burma does not 
recognize Rohingya as Burmese citizens?
    Mr. Stivers. There are a lot of questions there. I will try 
to get them specifically. In terms of the issue with the 
Rohingya and the Muslim minorities, that is obviously a concern 
and a reason why the election will fall short. And certainly we 
are providing assistance to the Rohingya there in Rakhine 
State. We are providing assistance as much as possible in some 
of the conflict communities, but certainly conducting an 
election in those areas is extremely difficult based on those 
realities.
    In terms of the flooding, we have provided a significant 
amount of assistance to help the most vulnerable people who 
have been affected, and as that moves forward we will try to 
make sure that that assistance continues.
    Mr. Salmon. Do we think that their government is prepared 
to deal with this, Mr. Russel?
    Mr. Russel. To your earlier question, Mr. Chairman, we are 
working intensively with ASEAN as a group. I was in Kuala 
Lumpur 2 weeks ago for discussions on regional issues and 
raised the issue of irregular migration as the rainy season 
ends.
    We are also dealing directly with governments in the first 
instance with the Government of Burma and urging them to 
accelerate their efforts in Rakhine State to expand access by 
humanitarian organizations to facilitate the peaceful return of 
Rohingya and IDPs from camps to their homes, and in the 
meantime, to protect their security and to work on creating 
economic opportunities. We are also working bilaterally with 
the concerned countries in the region, specifically Malaysia, 
Thailand, and Indonesia. Secretary Kerry met with the 
Indonesian and the Malaysian foreign ministers over the last 
few weeks, and our effort there continues.
    Mr. Salmon. Thank you. Chairman Royce.
    Mr. Royce. Well, thank you, Secretary Russel. We have 
listed only one person, only one person, on the human rights 
ground on that list. I wonder why we aren't using this tool to 
greater effect. It just seems that the balance is out of skew 
given what is at stake and given the magnitude of the human 
rights abuses.
    Mr. Russel. Mr. Chairman, we work closely with our 
colleagues in the Treasury Department and in the intelligence 
community, as well as of course through our Embassy and our 
activist Ambassador in Rangoon, Derek Mitchell, to try and 
identify bad actors, including human rights violators, and 
develop legally viable cases for designation. We are actively 
on the hunt for candidates and for evidence that will be 
adequate, legally, to list----
    Mr. Royce. Let me ask you another question then and that 
has to do with the ``safe-zones.'' Activists pushed for ``safe-
zones'' in Darfur and in south Sudan, and that was the concept 
where places people could go to escape either Bashir's aerial 
bombardment or to escape the Janjaweed, and you have the same 
debate going on in Syria today: Could we create safe zones to 
protect civilian populations from carpet bombing, and in that 
case done by Assad, by his regime?
    This has been suggested today in terms of Rakhine State. 
You have a state here where this minority population is 
persecuted and we don't have access for non-governmental 
organizations, for humanitarian groups that want to come in and 
provide services for people that are in crisis. Is this a 
viable option in Burma? What steps would be needed to set up 
that safe zone for the Rohingya inside of Burma? Those were 
questions I was going to ask you.
    Mr. Russel. Thank you, Mr. Chairman. It is important to 
take as our starting point that Rakhine State--as poor and as 
desperate as it is--is not a war zone and our strategy focuses 
on pushing the Government of the Union of Myanmar, the 
Government of Burma, to fulfill its responsibilities to its own 
people. The people in Burma deserve the full protection of the 
government both at the local level and at the national level. 
That is what we are pushing for.
    The concern that I would have with safe zones, per se, is 
the risk of segregation. All people in Burma, all people in 
Rakhine State deserve to have their personal safety and 
security protected. There is, Mr. Chairman, significant 
dialogue now between the two communities. There is a process by 
which the Rohingya in the IDP camps are being assisted in 
returning safely and securely to their hometowns. I believe 
they don't want to be segregated. They want to be integrated 
and that is the direction that we are and should be pushing.
    Mr. Royce. Well, here is the problem. As I talk to 
representatives of humanitarian organizations, of course 
Doctors Without Borders was pushed out, but the argument is 
that that government is not doing that. It is not protecting 
religious minorities. So if you can have a carve-out of an area 
where traditionally they have lived there for generations, 
where the NGO community can go, that is better than state-
sponsored attacks where the police look the other way. Anyway I 
just wonder when they will be reintegrated into Burmese 
society. Is the government there giving you some indication? I 
assume you are actively pushing for integration, right?
    Mr. Russel. Yes, we are. We are pushing hard for the safety 
of the Rohingya, and the full access of humanitarian agencies. 
Doctors Without Borders and some of the major NGOs have been 
allowed to operate again.
    Mr. Royce. Well, thank you. I am out of time, but thank you 
again, Mr. Chairman.
    Mr. Salmon. Thank you. The chair recognizes Mr. Sherman.
    Mr. Sherman. Mr. Stivers, I want to focus a little bit 
about your agency's financing of parts of the election. I would 
like to know how much money we have spent supporting the 
efforts to develop a voter list, and for temporary workers on 
election day and the other costs, whether or not we think that 
the money we spent to help Myanmar, Burma, develop the election 
lists has been well spent. And there is going to be 40,000 
supposedly, roughly 40,000 temporary workers on election day. 
They are paid for by foreign donors. Does that include us? And 
are these 40,000 going to be securing the election or 
intimidating the regime's opponents?
    Mr. Stivers. Thank you for that question, Mr. Sherman. The 
U.S. has provided $18 million to support the election in total, 
and I can get you that breakdown between the different 
components after this hearing. Those go to our partners, IRI, 
NDI, to work on things like party building, voter registration, 
and some of the technical aspects of running an election 
through the UEC.
    I think that when we had this opening and when they called 
for an election, we believed that this was a great opportunity 
to support the election. There are obviously many flaws, many 
challenges, but we have been calling for elections for decades 
in Burma. And the support we provide for these technical 
aspects shouldn't be looked at as assistance to the government 
or some sort of budget support. This is democracy building 
technical assistance to our partners to help the government.
    Mr. Sherman. I will ask you though from the philosophy 
which I support, we paid in part for these election lists. Are 
they good election lists, voter lists?
    Mr. Stivers. The voter lists are challenged. As I mentioned 
before, there are 53 million people in the country. They 
haven't had an election like this ever and there are 
significant challenges.
    Mr. Sherman. Another challenge. They do a good job, they 
don't do a good job. Mr. Russel, you seem to have a comment.
    Mr. Russel. Yes, I was in Burma when the voter lists were 
first displayed, and I think the consensus among the civil 
society groups that I met with was that this is a significant 
step forward, a huge step forward, both because they were 
posted online and because they were posted up in the townships 
and the facilities that created an opportunity for people to 
find mistakes.
    Mr. Sherman. That is good to hear. What about the 40,000 
temporary workers?
    Mr. Russel. So I also met with the Home Minister who is in 
charge of this and pushed hard for him to accept that with 
respect to the poll monitors and security people, while we 
understood the need to supplement the very sparse police force, 
it was important that these people not be seen as agents of the 
government and not intimidate potential voters. So they have 
now begun a training program, something that we strongly 
encouraged. These will be unarmed people with no police powers. 
And we are continuing to push for transparency by the 
government in explaining the rules and the roles of the----
    Mr. Sherman. Have they hired party activists for the 
insider party or have they hired people without a strong 
political view and record of activism, or do we just not know?
    Mr. Stivers. In terms of the observers?
    Mr. Sherman. Yes.
    Mr. Stivers. Well, there are both domestic and 
international independent observers.
    Mr. Sherman. I am talking about the 40,000 domestic 
observers.
    Mr. Russel. The individuals who are providing security in 
the polls? Let me take that question back.
    Mr. Sherman. Okay, I will ask you to come back with that 
because I have got another one, and this one is more difficult. 
The State Department has to have standards to evaluate human 
rights. Now there is, as I mentioned in my opening statement, a 
tough line between immigration law enforcement on the one hand 
and ethnic cleansing on the other. I will give you an extreme 
example.
    If the country of Romania were to expel its Hungarian 
minority on the theory that the Romanians have been there since 
the Roman Empire and the Hungarians moved there after the fall 
of the Roman Empire and apparently moved there without 
documents at that time during the Middle Ages, we would call 
that ethnic cleansing. I assume that is clear. But if a country 
were to deport a man who is 80 years old who had spent 75 years 
living in that country that would be the law of many or most 
democracies around the world.
    There are a number of countries that deny birth 
citizenship, some who deny citizenship to those whose parents 
were born in the country. Do we have a standard or is 
oppression like the Supreme Court referred to pornography, we 
know it when we see it? Do we have a model for what is fair 
treatment of ethnic minorities who have lived in countries for 
less than 1,000 years?
    Mr. Russel. Let me speak to the specific issue of the 
Rohingya. Our standard is maintaining the human rights, 
dignity, and safety of all residents in Burma. We believe that 
particularly after generations of residency in Burma, or all of 
the Rohingya should be given a pathway to full citizenship.
    Mr. Sherman. Mr. Russel, if I could interrupt, not all the 
Rohingya have lived in--there are Rohingya who are born in 
Bangladesh. One of them might have moved last year without 
documents to Myanmar and you would draw a distinction. That is 
the distinction I am asking you to draw.
    Obviously everyone in the entire world including those that 
we deport should be treated with dignity. The question is has 
the State Department come up with a U.S. policy on whether it 
is a violation of human rights to deport someone who has lived 
in a country for one generation, family that has lived there 
two generations, a person who has lived in a country 75 out of 
their 80 years? Do we have standards or can you just--is it a 
matter of, obviously to you and to me, if a Rohingya family has 
lived in Burma for three generations it is wrong to deport 
them?
    Mr. Russel. Well, we are not presuming to tell the Burmese 
precisely what standards they must apply in determining 
citizenship. What we are saying is that the Rohingya who live 
and have maintained families in Burma should be granted a 
pathway to citizenship that doesn't force them to self-identify 
against their will as Bengali.
    Mr. Sherman. But we apply that to those who have been there 
a certain amount of time, which is most of them, and we are not 
applying that to those who have been there for only a few years 
and may have moved from Bangladesh just a few years ago. And we 
just don't have a standard, a description of what is and is not 
a violation of--a deportation or a deprivation of full 
citizenship that violates human rights. We are just kind of 
calling it by the seat of our pants.
    Mr. Russel. The focus, Mr. Congressman, is on the long term 
residents of Burma.
    Mr. Sherman. And multi-generational.
    Mr. Russel. Yes.
    Mr. Sherman. Thank you.
    Mr. Salmon. Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much. The history of 
elections in Burma have been really something that has--it has 
been on my radar screen, but it has not been on many people's 
radar screen, where they used to say there is a general 
election in Burma and that meant all the generals got together 
and decided who was going to be boss. And at least we have made 
some progress since those days, and we are happy to hear that.
    And it has taken a number of--a horrendous amount of effort 
on the part of our State Department and other human rights 
people throughout the world getting behind Aung San Suu Kyi 
even to achieve the progress that we have had. And now we are 
hopefully in the home stretch to coming to a point where Burma 
could foresee within a period of time to have an acceptable 
government to democratic, basic democratic standards. But we 
certainly, from what your testimony is, is that we have not 
crossed that line at that threshold yet but maybe this upcoming 
election if it is held correctly will put us into a position 
where we have at least crossed into the line of acceptability.
    In the past we have had the Karen and the Karenni and other 
ethnic minorities that have been oppressed. Is that oppression 
still going on with the Karen and Karenni?
    Mr. Russel. Well, thank you, Congressman. First, I couldn't 
agree with you more. The military dictatorship spent 50 years 
digging itself into a hole and it is going to be an arduous 
process for them to climb out of it. One election isn't going 
to solve every problem, but we are working, and particularly 
our fantastic team in the field led by our Ambassador Derek 
Mitchell are working tirelessly to assist the Burmese civil 
society and----
    Mr. Rohrabacher. Through this process I would hope that Mr. 
Sherman's comments about having a definition that we can 
actually be creating definitions as we are working through this 
process and see what works and what doesn't. And we will be 
anxiously awaiting to hear what you have to tell us as this 
proceeds.
    What about in the--okay, back to the Karen and the Karenni. 
Are they going to participate in this free election? And is 
there any indication that the repression, the level, the 
military activities against them have decreased?
    Mr. Russel. Well, the signing of the ceasefire, the 
national ceasefire agreement with eight parties represents a 
very big step forward. There is still fighting in some of the 
ethnic areas. Polling will not take place in areas where 
fighting is underway. But all of the groups including the 
Kachin, including some of the outliers, have agreed on the text 
of the ceasefire agreement. Different groups have different 
reasons for not signing yet.
    What we are pushing for, Congressman, is for the military 
in Burma and for the government to exercise maximum restraint 
and to accord, even to the groups that haven't yet signed, the 
care that they are according to the groups that have already 
signed.
    Mr. Rohrabacher. Well, let me just suggest that signing the 
document is okay. It is something we can say, here is a 
benchmark.
    Mr. Russel. Right.
    Mr. Rohrabacher. But it is the actual fulfilling of--I 
mean, somebody could have a ceasefire, and from what--I have 
sources of information from Burma say there is still a lot of 
military attacks going on the Karen. Let me just ask this then, 
okay. So we are going to--hopefully there will be the fighting 
will go down, there will be some polling going on there.
    What about over there with the, I guess you call them the 
Rohingya, in the western side with the Muslims from Bangladesh 
we have the opposite problem there. And with the Karen and the 
Karenni you have government officials and government military 
attacking these minority groups, but with the Muslims what you 
have is the government stepping aside and watching violent acts 
being committed against the Muslim population there in western 
Burma. So in one case the government is too anxious to use its 
military against its own people, but on the other side not 
willing to protect the human rights, basic human rights, of the 
Muslim population.
    So I hope that if there is any message that we send out 
from this hearing and it is to those Muslims who are under 
attack, you have human rights. We care about your human rights 
as much as we do about the Christians who are being under 
attack and the Karenni and the Karen areas of Burma.
    And I wish you guys a lot of luck, and I know that our 
government, that you and the State Department are very sincere 
about trying to bring peace to Burma after all of these years, 
and I am anxious to have a positive report a year from now 
about how the ceasefire and the election actually has moved 
forward in a way that is putting Burma on the right path.
    Mr. Russel. Thank you, Congressman.
    Mr. Salmon. Thank you. Mr. Lowenthal.
    Mr. Lowenthal. Thank you, Mr. Chair. My question, I have 
two questions, the first one following up about Rohingya. Has 
the National League for Democracy and Aung San Suu Kyi 
addressed the persecution of Rohingya, and would a government 
controlled by the opposition party, would that mean improved 
conditions for Rohingya?
    Mr. Russel. Generally speaking, the NLD has stayed away 
from this issue which is a lightning rod, a hot button issue in 
Burmese politics. Burma is a country with over 80 percent 
Buddhism, and the subject of Muslims, the subject of Rohingya 
is very controversial.
    Mr. Lowenthal. You mean everyone is against them.
    Mr. Russel. Regrettably, this is not an environment where 
any political leaders seem prepared to step up and to speak out 
forcefully in defense of the rights of the Muslim minority and 
particularly of the Rohingya.
    Congressman Rohrabacher put his finger on a paradox, on a 
dilemma in Burma, which is that at the same time that the 
government and the leaders are putting a tremendous amount of 
effort into firming up the union by reaching ceasefire 
agreements and ultimately peace agreements with ethnic 
minorities such as the Karen and others, they are turning a 
blind eye to the prevalence of hate speech and divisive 
religious activities that will not strengthen the union but 
will in fact divide it.
    Now I was gratified when President Obama last visited Burma 
and stood side by side with Aung San Suu Kyi in a press 
conference. She spoke out clearly in defense of religious 
freedom and the responsibility of a democracy to protect 
minorities.
    Mr. Lowenthal. Thank you. I want to ask another, since we 
are talking about persecuted minorities, and I want to talk 
about the LGBT community. I want to raise that activists in 
Burma reported a high level of police abuse against LGBT 
persons and transgender people in particular. The State 
Department has programs to work with law enforcement in many 
parts of the world to help them improve their human rights 
records and their criminal justice system.
    What I am interested in is how can the United States 
Government work with Burmese law enforcement, ensure that they 
are not targeting or abusing people because of their sexual 
orientation or gender identity? And also, specifically, we have 
worked real hard to create a special envoy for LGBT rights, 
Randy Berry, in the State Department. Has he been able to 
address any of these issues? And specifically, there is the 
British era law that criminalizes homosexuality, Section 377. 
It is still on the books in Burma. Activists in Burma are 
working to get this antiquated law removed. What are we going 
to do about this? What can we do about this issue?
    Mr. Stivers. Thank you, Mr. Lowenthal, for that question. 
Let me field it first because the protection of LGBTI 
individuals throughout Asia is a priority at USAID and 
certainly part of our overall human rights initiatives in the 
region. In Burma, specifically, we are working with civil 
society organizations who are developing the skills to prevent 
harassment. They advocate for equal protection under the law 
and support activities to give LGBTI individuals greater voices 
in their communities. So this is part of our overall strategy 
in Burma within----
    Mr. Lowenthal. Will we be able to get rid of Section 377 
which actually outlaws, criminalizes homosexuality in Burma?
    Mr. Stivers. We are empowering civil society voices who are 
pushing for a stronger voice and adequate human rights for the 
LGBTI----
    Mr. Lowenthal. I am almost out of time, but I would like 
the report back and I would like, really, how that is moving 
forward.
    Mr. Russel. I know that my colleague Tom Malinowski when he 
visited Burma earlier this year met with various groups and 
raised these issues. We will get you an answer.
    Mr. Lowenthal. Thank you. I am very interested in that. And 
I yield back.
    Mr. Salmon. Without objection, I would like to recognize 
Mr. Crowley for a question.
    Mr. Crowley. Thank you, Mr. Chairman. I appreciate your 
indulgence here. I served for 12 years on this committee and I 
appreciate the opportunity to be back here again. I have 
tremendous concern about--I appreciate in particular the 
comments by Mr. Rohrabacher who has worked for many, many years 
on this as well, and particularly appreciated the comment about 
the general elections as both said.
    And especially in light of the fact that we look at that 25 
percent of all the seats within the Parliament no matter what 
happens will still be held by the military. In fact, you would 
have to have every seat won by one party or in coalition with 
parties to in essence have any possibility of affecting change 
in terms of Burma's constitution. Is that right, Mr. Russel?
    Mr. Russel. Well, I was in Burma recently and met with Aung 
San Suu Kyi, and we took out a pen and pencil and started doing 
the math. Yes, the opposition would have to win 66 percent of 
the seats in Parliament in order to mitigate the structural 
bias built in by 25 percent allocation to the military. But she 
believes this is possible. The NLD is determined, 
notwithstanding the constitutional ban on her becoming the 
President. She said, and she said it publicly that she sees no 
bar to her being able to lead and direct the government.
    Mr. Crowley. But you would have no problem saying right now 
that the cards are pretty stacked, wouldn't you?
    Mr. Russel. My starting point in describing elections is to 
recognize the structural flaws. I would add, and I did earlier, 
Congressman, to that list, the disenfranchisement of Rohingya, 
the white card holders, and some of the other shortcomings.
    Mr. Crowley. And I appreciate the questioning by my 
colleague from California, but I think it is also important to 
point out that under Aung San Suu Kyi's leadership, the NLD 
voted against all four bills discriminating against the 
Rohingya population. Is that not correct, Mr. Russel, or Mr. 
Stivers?
    Mr. Russel. The four race and religion bills which have 
passed--you know what, Congressman, I will have to fact check 
how the NLD voted on all----
    Mr. Crowley. My understanding is they were the leaders in 
the opposition to that legislation. So I think it is important 
to point out in terms of the questioning to what degree Aung 
San Suu Kyi or her party have stood in terms of--this is a very 
sensitive issue, I recognize that, the sensitivity. But they 
have taken a courageous stand as a party in opposition to that 
discriminatory legislation. I just want to make that. And if 
you could get back to us for the record, but I am just stating 
for the record, my understanding is they did do that.
    And you have talked about what you are doing to deal with 
the election day challenges, and you acknowledge the separate 
structural deficiencies that we just mentioned like the 25 
percent of the seats controlled by the military, but you 
haven't said yet what you are going to do, or what the United 
States Government through our State Department is going to do 
to fix the structural differences. What are you going to do? 
What does the State Department plan to do to address the 
structural differences--deficiencies to address the core issues 
there?
    Mr. Russel. Well, Congressman Crowley, the first order of 
business for a new government that takes office on April 1st in 
Burma is going to be dealing with the problems that the 
previous government has exported into the future. The 
disenfranchisement of an important segment of Burma's 
population, these white card holders, the Rohingya, who have 
been allowed to vote--or before, the structural bias in terms 
of the 25 percent, the constitutional ban on Aung San Suu Kyi 
Presidency, these are among the issues that are going to have 
to be dealt with first and foremost by a new government.
    Before we get to a new government, sir, we have to ensure 
that the results of the polling are honored by all parties 
including the military. We have to ensure that the government 
formation period and that process is a fair process, a 
transparent process. We have to ensure also that the selection 
process, the election of the new President which is done by a 
fairly arcane system be a credible one as well.
    Mr. Crowley. Mr. Russel, do you believe we need to go back 
to action-for-action, the policy that was established during 
the Clinton time as Secretary of State? Do we need to go back 
to action-for-action?
    Mr. Russel. Well, to the extent that we respond positively 
or negatively to what the Burmese do, I think that that 
principle has been sustained. But I do not believe that we are 
in a situation that warrants going back to the very basic 
point-for-point quid pro quo because of the momentum that has 
been built up in Burmese society toward reform and democracy.
    Mr. Crowley. Mr. Chairman, I think the President has 
acknowledged there has been backsliding, and I think it is a 
direct result of abandonment, in my opinion, of the action-for-
action that was effective in moving Burma forward. I am gravely 
concerned about this election process. The cards are stacked. I 
know that Aung San Suu Kyi and her party are putting on a great 
face moving forward, but they know the cards are stacked as 
well. I don't believe these elections will really demonstrate 
the true intention of the people of Burma in the result of 
those elections given the fact that 25 percent of these seats 
will be held by the military no matter what. That needs to 
change, Mr. Russel, and I hope our State Department gets that 
message. Republicans and Democrats agree that there needs to be 
change in Burma. I will yield back.
    Mr. Salmon. I thank the gentleman. I thank both of the 
witnesses for their time. We will dismiss you now and seat the 
next panel. Thank you very much.
    Mr. Russel. Thank you very much, Mr. Chairman.
    Mr. Salmon. We are very appreciative to be joined by a 
private panel this afternoon as well. The Honorable Tom Andrews 
appears before us as the president of United to End Genocide 
and Ms. Jennifer Quigley as the president of the U.S. Campaign 
for Burma. Mr. Andrews, we will begin with you.

 STATEMENT OF THE HONORABLE TOM ANDREWS, PRESIDENT, UNITED TO 
                          END GENOCIDE

    Mr. Andrews. Thank you very much, Mr. Chairman. Thank you, 
members of the committee. And thank you, Congressman Crowley, 
for your passionate and always diligent focus on human rights 
in Burma. We really appreciate it.
    It is so important that you are holding this public 
hearing, Mr. Chairman, at this particular time. As you have 
recognized, in 2\1/2\ weeks the citizens of Burma will go to 
the polls in what the Burmese authorities are describing as 
democratic elections. Those who are fortunate enough to have 
the right to vote to cast ballots for those parliamentary seats 
that have not been reserved for the military or by a 
constitution that cannot be changed unless it is approved by 
the military, are grateful for the opportunity to cast their 
votes.
    But they could be forgiven for being highly skeptical of 
the elections that they are now facing. The last time there 
were national elections in Burma was in 1990. Aung San Suu Kyi 
and the National League for Democracy had an overwhelming 
victory, and as a result of that they headed off either to 
prison, either to exile, or to house arrest where they remained 
for decades. I was elected to Congress in 1990. I went to 
Congress, Aung San Suu Kyi went to prison. It was a fundamental 
injustice.
    Ladies and gentlemen, since that time, the United States 
began to exert systematic, economic and diplomatic and 
political pressure on the regime. That pressure worked. Five 
years ago, the military government agreed to reforms that 
allowed for new freedoms. Aung San Suu Kyi went from house 
arrest to the campaign trail and then to a seat in Parliament.
    I have put in my written testimony where things stand 
today. Many of those points were echoed by members of the 
committee. I am very impressed with the fact of the level of 
awareness of this committee of the disturbing developments 
within Burma, but I want to emphasize a few major concerns. One 
is that the United States Holocaust Memorial Museum, after 
sending a delegation to Burma, has concluded Burma is at the 
very top of countries in the world, the single top country in 
which it is most likely that we will see mass atrocities and 
genocide in the coming weeks. Political prisoners are being 
newly detained in that country. At least 91 prisoners of 
conscience are currently in prison while hundreds of activists 
await trial for their peaceful political activities.
    Burma continues to be designated as a Country of Particular 
Concern under the International Religious Freedom Act. The 
movement of extreme Buddhist nationalists, the Association to 
Protect Race and Religion, or Ma Ba Tha, is gaining strength 
across Burma as it relentlessly pursues a campaign fueling fear 
and bigotry against religious minorities.
    Now you heard from the testimony today there was a 
recognition of some of these problems. But there was also a 
good news narrative from the testimony you heard from the 
administration. One was that Doctors Without Borders, who the 
government kicked out of Rakhine State leaving many, many 
thousands of people without health care, I traveled to that 
area when that happened. I met these people and their families. 
I returned 3 months later, and most of the people I met had 
perished because of this governmental decision.
    Now the administration says Doctors Without Borders is back 
in Rakhine State, but what they won't tell you is that they are 
back under severe restrictions. That they don't have--are not 
allowed to provide the people with the resources that they have 
available to provide their health care. And so more and more 
people are going to continue to suffer and die because of that 
government restriction on people who are willing to provide 
health care who are not allowed to do so.
    As you heard, ASEAN Parliamentarians for Human Rights came 
to Washington, met with Congressman Crowley and Lowenthal. They 
have just released a new report after sending a delegation very 
recently into Burma. It is in my testimony, in the written 
testimony. It is called Disenfranchisement and Desperation in 
Myanmar's Rakhine State: Drivers of a Regional Crisis.
    What they are saying is that the U.N. Refugee Agency's 
warning that we are likely to see a new wave of desperate 
people heading into rickety boats and heading into the sea. A 
fleeing from this persecution is likely to occur because we 
haven't addressed the core reasons for them leaving and we have 
simply ignored the situation. And the only reason that these 
boats have not continued is because of the monsoon season, and 
the monsoon season is about to end.
    In 2012, President Obama made his historic visit to Burma. 
The President of Burma, Thein Sein, gave 11 commitments to the 
President for reform. The President invited him to the White 
House; President Thein Sein reiterated those 11 commitments. He 
has failed to keep all but one, including the basic right, the 
basic commitment for the United Nations to have human rights 
monitors in that country. We have not called him on this. We 
have not exercised the various tools that we have available to 
hold this government accountable and to hold those who are 
guilty of human rights violations accountable. It has been a 
systematic failure to do so. And I echo and thank Congressman 
Crowley for his comments raising that question.
    Yes, there has been progress in some areas, but there has 
also been backsliding. We are going in the wrong direction, and 
it is incumbent among this Congress and this administration to 
take action now. It is a matter of life and death for so many. 
Thank you, Mr. Chairman.
    [The prepared statement of Mr. Andrews follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. Thank you, Mr. Andrews.
    Ms. Quigley.

STATEMENT OF MS. JENNIFER QUIGLEY, PRESIDENT, U.S. CAMPAIGN FOR 
                             BURMA

    Ms. Quigley. Thank you, Chairman, Congressman Crowley. I 
would like to thank you for the opportunity to speak today 
about the challenges to democracy, human rights, and peace in 
Burma. A week ago today, the Government of Burma touted the 
historic signing of a document referred to as a nationwide 
ceasefire agreement. It is not a nationwide ceasefire 
agreement.
    After a multi-year negotiation process, the Government of 
Burma refused to allow three small ethnic armed organizations 
to sign the nationwide ceasefire agreement. Many of the other 
ethnic armed organizations were clear that they would not sign 
a non-inclusive ceasefire agreement. Several of the largest 
armed ethnic organizations including the Kachin Independence 
Organization did not sign the nationwide non-inclusive 
ceasefire agreement. While diplomats and media converged on 
Naypyidaw to witness the signing of this agreement, the Burmese 
army launched an offensive against one of the non-signatories, 
the Shan State Army-North, displacing more than 3,000 Shan 
villagers, on the same day.
    The timing of the signing of the nationwide ceasefire was 
more important than the number of participants. The Government 
of Burma pushed forcefully for a nationwide ceasefire to be 
signed prior to the November 8th nationwide parliamentary 
elections. The upcoming election is part of the current 
government's strategy to achieve legitimacy as a democratically 
elected government.
    The government has taken steps to eliminate its chances at 
failing to achieve its goal. The 2008 constitution guarantees 
25 percent of the seats to the military. With only 75 percent 
of the seats contested, the USDP only needs to win 34 percent 
of the contested seats to form a government with the backing of 
the military. Whereas, Aung San Suu Kyi and the National League 
for Democracy need to win 67 percent of the contested seats to 
have a simple majority and the potential to form the next 
government.
    To date, the Union Election Commission has actually 
cancelled voting for more ethnic minorities than they cancelled 
in the 2010 election. The Union Solidarity and Development 
Party government is perverting religion to garner support from 
a majority Buddhist electorate. The already persecuted and 
oppressed Rohingya minority have been stripped of their voting 
rights, disenfranchising approximately 1 million people. Muslim 
candidates have been disqualified including U Shwe Maung, a 
current USDP member of Parliament from the 2010 election. 
Parliament passed the four race and religion discrimination 
laws this year to portray the USDP as the protectors and 
defenders of Buddhism. The fomenting of religious 
discrimination and tension raises grave concerns about election 
related violence.
    So despite the disenfranchisement of millions of ethnic 
minorities, exclusions of Muslims, and disproportionate 
advantage for the ruling USDP party ahead of the November 8th 
election, the international community has an outsized 
expectation for an acceptable election outcome and hope for an 
NLD victory. But regardless of the election outcome, there are 
significant obstacles to establishing a truly genuine 
democratic government in the country.
    The primary obstacle is a 2008 constitution. The military's 
constitution guarantees the military has veto power over any 
constitutional changes. To specify, what normally gets left out 
is that you need more than 75 percent of the vote in Parliament 
to have a constitutional change, which means every single 
elected member as well as at least one member of the military 
block of seats.
    In addition, the constitution states that the civilian 
government does not have authority over the military; it does 
not provide for an independent judiciary; it continues the 
legal authority of all military junta laws, which means that 
that will continue the 1982 citizenship law that denies the 
Rohingya citizenship as well as the law Mr. Lowenthal referred 
to against LGBT rights. So those cannot be changed without 
constitutional change, which means the military has to prove 
that change. In addition, it guarantees that the military has 
authority over almost all ethnic minority affairs.
    The persecution and oppression of the Rohingya minority 
continues to grow dire. Earlier this year, President Thein Sein 
invalidated the legal status of the Rohingya identification 
cards known as white cards. This has led to the Rohingya 
leaving Burma and taking to the sea. The United States must 
address both the root cause of the Rohingya's plight in Burma 
as well as to continue to pressure regional governments to 
rescue and accept the Rohingya refugees who become stranded at 
sea.
    These deep structural and systemic problems should be the 
focus of U.S. Burma relations. For too long, the Obama 
administration has prioritized building and deepening a 
relationship with the Burmese Government in hopes of persuading 
through diplomacy, capacity building and investment. This 
approach has not worked. Nearly 3 years ago, President Thein 
Sein pledged 11 commitments on democracy, human rights, peace 
and humanitarian need to President Obama; to date only one has 
been fulfilled.
    It would be a mistake to predicate the future of U.S. Burma 
policy on the signing of a partial ceasefire agreement or a 
deeply flawed election. Congress should consider legislation 
that is forward-looking to address the problems Burma will face 
regardless of who wins the election. Binding benchmarks for 
further lifting of remaining sanctions or conditions for 
potential future engagement have been sorely lacking from U.S. 
Burma policy since investment and financial sanctions were 
lifted in 2012. Congress should create a legislative policy 
that clearly states U.S. expectations from the Government of 
Burma on key human rights and democracy indicators as a basis 
for the future of U.S. Burma relations.
    In my written testimony I included a list of what they 
could potentially include. The Burmese military remains the 
biggest obstacle to achieving these key democratic and human 
rights concerns. Whether the USDP or NLD wins the election 
November 8th and forms the next government, neither will be 
able to address these concerns and convince the Burmese 
military to change its ways without the international community 
and particularly the United States conditioning the future of 
bilateral and multilateral relations on these key democratic 
and human rights concerns. A genuine democratic Burma is in the 
best interest of our two countries. Let's ensure Burma achieves 
genuine democracy. Thank you.
    [The prepared statement of Ms. Quigley follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. Thank you. Just prior to you, we had a chance 
to hear from our administration and their policy on Burma. Mr. 
Andrews, what is your opinion on the U.S. Government's role in 
Burma? How effective has the U.S. been on assisting the 
Rohingya humanitarian crisis, the democratic transition, the 
ceasefire negotiations, and what do you think the United States 
should do? What role should we play in the coming months?
    Mr. Andrews. Thank you, Mr. Chairman. That is an excellent 
question. As Mr. Russel pointed out in his testimony, the 
administration has given voice to the concerns that he 
outlined. That is true. He explained that the administration is 
pushing for relief for the horrendous situation affecting the 
people in Rakhine, the Rohingya.
    But what he didn't specify is what specifically the 
administration is doing to push for these changes and these 
reforms. The first thing that they could do is give voice, the 
President could give voice to the fact that he was personally 
given 11 commitments, and only one of those commitments have 
they come through on. I mean that was 3 years ago, Mr. 
Chairman, and we haven't heard anything about those 11 
commitments from the administration.
    We can also begin to apply targeted sanctions against the 
individuals who are responsible for the human rights violations 
in that country. The administration has the authority to do so, 
the SDN list. But despite the fact that those human rights 
violations have spiked, not a single living human being has 
been added to that SDN list. In fact, the only discussion we 
seem to be hearing is how people can get off the SDN list.
    The administration could also look at issues like military 
to military relations, GSP preferences. There is a whole range 
of things that the administration could hold out or hold off 
depending upon the behavior of the Government of Burma, but it 
hasn't. I think that Congressman Crowley's call for action-for-
action approach is exactly what is needed and is exactly what 
is missing.
    Mr. Salmon. Thank you. Just last week, we had a number of 
arrests of Burmese citizens because they expressed their 
political opinions on social media. This is despite the fact 
that the Burmese Government has dedicated itself to improving 
human rights and freedoms in the country, and despite the fact 
that the international community is watching this democratic 
transition slowly.
    Based on your experience with Burma, how would you assess 
the conditions of civil society, Ms. Quigley? Are people free 
to express their own political or religious thoughts? And to 
me, the recent four race and religion protection laws, which 
egregiously violates religious rights and freedom, impedes 
progress on this front. The law doesn't just discriminate 
against Muslims but other religions as well. How do we respond, 
and what will the Burmese Government do about this?
    Ms. Quigley. So civil society in Burma would say that there 
are, you can call it a tale of two civil societies. Those who 
spread hate and Buddhist extremism and nationalism have free 
reign. They can hold events, rallies, protests. They can spew 
hate online on social media. Whereas, the space for those who 
want to show criticism or concern for the national education 
law or for the LGBT community or those who want to speak up 
against the four race and religion discrimination laws, those 
are the ones that find themselves being arrested and facing 
charges for violation of some of the new laws that have been 
put in place.
    And so it is sort of a tale of two very different civil 
societies and two very different responses. It is one of the 
reasons why there has been an extreme limitation of voices in 
the country against the persecution of the Rohingya or against 
the race and religion discrimination laws, because they fear 
death threats.
    There is actually a coalition of women's organizations who 
did publicly speak out and call on Parliament and President 
Thein Sein to not pass these laws, and the leaders of that have 
faced daily death threats as a result of doing that. And so it 
is sort of a tale of two civil societies in Burma as a result. 
And it is something that our country needs to recognize and 
condition our relationship on a change in which you see 
prosecution of any hate speech that incites violence and help 
to enable civil society to find more space where they are not 
prosecuted for exercising what, here, would be fundamental 
rights and freedoms.
    Mr. Salmon. Thank you. Mr. Crowley.
    Mr. Crowley. Thank you, Mr. Chairman, again for the 
indulgence. I really do appreciate your calling this hearing. I 
also want to thank and commend both Congressman Andrews and Ms. 
Quigley for your own personal faithful dedication to democracy 
in Burma, but in particular I want to really point out the work 
of the U.S. Campaign for Burma historically as well. Not only 
because the guy is sitting behind me, but because I just think 
you have all done such wonderful work.
    And Tom, you have been incredible in terms of your own 
personal safety. Not easy for you to travel, and yet at the 
same time you have taken it upon yourself to go to some of the 
more difficult areas to diverse in many different ways in Burma 
and show great courage in doing that. And I just want to state 
for the record that without regard for his own personal safety, 
he has done remarkable work in trying to expose the truth of 
what is happening the people of the Rakhine region, the 
Rohingya in particular. Chairman Salmon, I think if you don't 
know it, you ought to know it as well.
    Tom, just going back, how much of the geopolitical, or 
geopolitics at play at State Department plays a role, in your 
opinion, in terms of how they approach Burma? Moving from the 
action-for-action, in my opinion, there is almost like a race 
to get to Burma. Can you just maybe comment in your opinion in 
terms of the geopolitic that is going on?
    Mr. Andrews. Well, Congressman, thank you, first of all, 
very much for your comments. There was a great battle here in 
the halls of Congress, as you recall, when those of us who 
believe that economic and diplomatic pressure should be exerted 
upon the military regime of Burma.
    Mr. Crowley. Looking over my shoulder seeing three of the 
portraits that I served under, one in particular had that.
    Mr. Andrews. Yes, indeed. And there was enormous pressure 
from the business community to not exert this pressure. And 
there was also geopolitical concerns regarding China and the 
overall region and the positioning of the United States. So the 
good news is, is that we overcame those obstacles and we 
demonstrated that with pressure you can see progress. The other 
good news is that there are some great champions of human 
rights and democracy that are working within our government, I 
am very, very happy and proud to say, and those voices are 
heard inside of the State Department and the White House.
    But the fact of the matter is, is that the China card, the 
instability of the region, the location of Burma, the fact that 
it has such a large population, it is a very significant 
country. And so those voices both of economic pressure and 
diplomatic pressure remain today, and I think we have to remain 
ever vigilant.
    Mr. Crowley. Is some of the pressure coming from Europe, 
our allies?
    Mr. Andrews. Yes. There have been. In fact, it was only 
until the United States took the lead in exerting diplomatic 
and economic pressure that the Europeans then followed. So 
there have always been those voices coming from the other side 
of the pond as it were.
    Mr. Crowley. Ms. Quigley, how many political prisoners do 
you estimate are still in prison in Burma?
    Ms. Quigley. So I would say that there is three categories 
now as opposed to one big number. One is those who are deemed 
political prisoners and that is a little over 100, then there 
are those who are pending charges who are not necessarily in 
prison but facing charges and that is over 100 as well, and 
then there is the Rohingya and it is unknown how many, if we 
are looking at only several hundred or if we are looking at 
over 1,000 Rohingya who since 2012 have just been detained in 
prisons that people do not have access to that we have no idea 
what their status is.
    Mr. Crowley. Tom, in terms of the 11 commitments the 
administration told us that they would hold the Burmese 
accountable to in terms of the government, they also said that 
they would release all political prisoners. In your estimate, 
do you believe they have followed through with that?
    Mr. Andrews. No, they haven't. In fact, they are re-
arresting or arresting new political prisoners for speaking 
out.
    Mr. Crowley. And Ms. Quigley, by your statement you would 
agree that they have not fulfilled that promise, have they?
    Ms. Quigley. Yes, they haven't fulfilled it, and the one 
that seems to get lost in all of this is that they maintain 
their criminal records and these are actually just as if they 
are out on parole. And so all their original sentences remain 
intact, and so if they step one toe out of line they will be 
re-imprisoned to serve the remaining sentence from their 
original convictions.
    Mr. Crowley. Mr. Chairman, as you know there is so many 
issues in regard to Burma, the 5 minutes doesn't give enough 
time to really expound upon them. But in terms of the ceasefire 
that was intimated to, Ms. Quigley, you made mention of, on its 
face regardless of the fact that not every party is a party to 
it, can you give an assessment of your view on terms of how 
strong it is?
    Ms. Quigley. It is not very strong. I think that it left a 
lot of issues undealt with that they are supposed to deal with 
in a political dialogue process that is supposed to start 
within 90 days. And so I think the next 90 days will show 
whether or not the groups meet with the government and whether 
or not they will make progress on huge gaping issues.
    The presence of the militaries, demilitarization, all those 
issues were not dealt with and so they will have to be dealt 
with in the next 90 days, and time remains to be seen whether 
they will actually go through with that.
    Mr. Crowley. Thank you. I would just point out, Mr. 
Chairman, before I yield back the time that irony is not lost 
in Burma either. And the fact that those four laws that were 
put into place to really discriminate against a particular 
population, the predominantly Muslim Rohingya population, 
basically making them a people without a country. Not wanted in 
Bangladesh, not wanted in Burma, forced to flee because of fear 
of death or maybe worse in terms of being put to death, 
starvation and depravity.
    Where the irony is of this, Mr. Chairman, you might want to 
know a member of Parliament of the ruling party, a man by the 
name of Shwe Maung, was elected as a parliamentarian. Because 
of the change in law his citizenship was withdrawn and was 
removed and he was forced out of Parliament, and he is a part 
of the ruling party, which I found very ironic.
    There is a lot of bad things happening in Burma, whether it 
is the Kachin or the Chin region, things that are going on even 
with the ceasefire. This upcoming election that is taking 
place, and I don't want to describe my feelings as to whether 
it will be fair or unfair, we will let the results speak for 
themselves. These laws have been put in place to discriminate 
against a people, creating more boat people, people without a 
country, refugees, children, men and women suffering and dying.
    I once again just want to applaud the work of both of you. 
And Mr. Chairman, I can't thank you enough for holding this 
timely hearing. You don't know what you have done to help this 
cause. I think, I suspect, one day you will. So thank you, Mr. 
Chairman.
    Mr. Salmon. Thank you. Mr. Sherman.
    Mr. Sherman. The Rohingya people live both in Burma but 
also in Bangladesh. Some of them from Bangladesh are fleeing as 
well. Do they face--the position of some in the Burmese 
Government is that the Rohingya are Bangladeshi. What is the 
position of the Bangladeshi Government toward the Rohingya? I 
realize that is literally just outside the borders of the 
purpose of this hearing.
    Ms. Quigley. It is horrible the way that the Bangladeshi 
Government treats the Rohingya, and that is actually not 
something new.
    Mr. Sherman. So this is a people that is persecuted on both 
sides of the border?
    Ms. Quigley. Yes.
    Mr. Sherman. And a people that is not only discriminated 
against in a predominantly non-Muslim country, they are Muslims 
who are discriminated against in a predominantly Muslim 
country.
    Ms. Quigley. Yes.
    Mr. Sherman. And the Burmese Government takes the position 
that the discrimination is warranted because these folks are 
really Bangladeshi. What does the Bangladeshi Government say 
about the Rohingya?
    Ms. Quigley. So they say that they are not Bengali. That 
they basically in essence are refugees from Burma, and--yes, 
yes. This is the position of the Bangladeshi Government.
    Mr. Sherman. So the position of the Bangladeshi Government 
is that these folks are really Burmese who have fled to 
Bangladesh, the position of----
    Ms. Quigley. Yes.
    Mr. Sherman. Wow. And so the discrimination by the 
Bangladeshi Government is more ethnic rather than religious.
    Ms. Quigley. Yes.
    Mr. Sherman. There are not religious differences, no 
doctrinal differences between one type of Islam and the other, 
it is purely----
    Ms. Quigley. And they view it as an immigration issue.
    Mr. Sherman. How does the Burmese Government treat its 
Christian minority?
    Ms. Quigley. Not well. So for years, the government has 
persecuted the Christians mainly because they are from the 
ethnic minorities, so you have sort of like the double issue of 
being an ethnic minority and a religious minority. It hasn't 
reached the level of persecution that it has faced the 
Rohingya, but you do have destruction of churches. You do have 
human rights abuses that take place against them, and sort of 
forced merit making, which is a process in which like they are 
forced to give money to build pagodas.
    And so it is sort of like--or if you can't afford to go pay 
for state schools, Buddhist schools you don't have to pay for. 
And so it is more of an attempt to remove Christianity from the 
country than it is to persecute them on the same level of 
extinction that you would say for the Rohingya.
    Mr. Sherman. So Mr. Andrews, they are taxed and they are 
forced to pay for Buddhist religious activity?
    Mr. Andrews. Yes, and they are literally under siege. One 
of the members of the delegation of MPs that came here from 
Southeast Asia 2 weeks ago and testified before the Tom Lantos 
Human Rights Commission was from Kachin, was Christian, and 
testified that in fact they are building Buddhist temples on 
Christian church sites.
    Mr. Sherman. Are they tearing down the church building or--
--
    Mr. Andrews. Yes. They have destroyed the church buildings 
and they are replacing them with Buddhist temples. I have 
traveled in that part of the world. I have seen entire villages 
just completely vacated because of being under siege, literally 
under siege by the Burmese military, and seeing the refugee 
camps just filled with Christians who are literally under fire 
by this government.
    Mr. Sherman. Well, Aung San Suu Kyi is a hero to those who 
read articles about human rights. Has she or her party stood up 
for the Christian minority? We have talked in the first panel 
about the Rohingya, but has she stood up for the rights of 
these other minorities, ethnic and religious?
    Ms. Quigley. I think only through the sense of the catch-
all of sort of like religious freedom and in their opposition 
to the four race and religion discrimination laws, most 
recently.
    Mr. Sherman. The chairman pointed out to me that you need 
government permission to have an interfaith marriage in Burma?
    Ms. Quigley. It is one of the four laws. Women, Buddhist 
women, need to get permission from the government to marry 
outside of their faith.
    Mr. Sherman. And the opposition party or parties supported 
that legislation or not?
    Ms. Quigley. No, the NLD was the lead in opposition to 
those bills and voted against them.
    Mr. Crowley. Will the gentleman yield for just a moment? 
Mr. Chairman?
    Mr. Sherman. I will yield to the gentleman.
    Mr. Crowley. I think it is also important to point out that 
they paid a price for that. There have been tremendous protests 
led by extremists within the Buddhist community, Buddhist monks 
who have protested Aung San Suu Kyi and her party. This is an 
incredibly sensitive issue. There is diverse discussion within 
their own party about it.
    But I do think, I don't want to make too much of it to some 
degree because of the sensitivity in the elections, but I think 
Aung San Suu Kyi has stood for principle, and I think that has 
to be mentioned. It may not be as vociferous as some may want 
to be, but she has stood and paid a penalty for that.
    Mr. Sherman. She has done more than others who have power 
in Burma, and at the same time because of her status around the 
world we expect even more. And I yield back.
    Mr. Salmon. I thank the distinguished panelists for sparing 
the time, and I thank the members up here for their interest. 
We have got to shine a light on this kind of thing if it is 
going to be fixed. We have to get that message out and let the 
administration know that we are not happy with the status quo. 
And so I really appreciate the time. And without further 
objection, this meeting will now be adjourned. Thank you.
    [Whereupon, at 11:50 a.m., the subcommittee adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

[Note: The full report is not reprinted here but may be found on the 
Internet at http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=104074]

      
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
      
                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
